                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS
 .
   o                                        CLOSEOUT MEMORANDUM
                                                                                  111
Case Number: A-04040016                                                                        Page 1 of 1



        We received the allegation that a recent NSF proposal submitted by subjects 1 and 2' included a
        research project taken fiom a scientist without his permission. Subject 1, who worked with the
        scientist on the project for about 4 years, first as a post doc and later as a researcher, submitted
        the NSF proposal to continue the ongoing research work. Subject 2 was subject 1's co-worker
        who agreed to work with her on the continuing project.

        We learned that, together, the scientist and subject 1 submitted.and received a grant fiom another
        funding source to support the project several years earlier. Further, the scientist and a colleague
        submitted an earlier NSF proposal to fund the project that stated in the proposal subject 1 helped
        to develop the ideas presented and to write the proposal. Also, subject 1 authored and
        co-authored several papers with the scientist about the project's results prior to submitting the
        recent NSF proposal. Finally, information provided by the scientist to our office showed that
        subject 1 repeatedly requested that the scientist be a PI, co-PI or, at least, an informal collaborator
        on the continuing project, an offer that was refused by the scientist.

        We concluded that subject 1 had every right to continue a project that subject 1 had participated
        in through the submission of proposals for the project, the receipt of a grant to support the
        project, and the publication of results with the scientist. Further, the scientist elected not to
        continue research on the project at this time despite repeated attempts by subject 1 to include the
        scientist.

        There is no substance to the allegation that subject 1 or subject 2 inappropriately used the
        scientist's project. This case is closed and no further action will be taken.




SF OIG Form 2 (1 1/02)
